IN THE SUPREME COURT OF THE UNITED STATES
Docket Number 20-988

BARRY SMITH, Superintendent, State Correctional Institution
at Houtzdale, et al.,
Petitioners,
v.
AARON EDMUND TYSON,
Respondent.

Certificate of Service
I, Michael Wiseman, hereby certify that:
I am a member of the Bar of this Court;
I represent Respondent, Aaron Tyson, in these certiorari proceedings;
On February 21, 2021, I served a copy of Respondent's Brief in
Opposition to Petition for Writ of Certiorari and a copy of his Motion to Proceed In
Forma Pauperis, upon counsel for Petitioner, by electronic filing and email,
Petitioner's counsel having consented to such service:
Michael Mancuso
mmancuso@monroecountypa.gov
Andrew Kroeckel
akroeckel@monroecountypa.gov
Counsel of Record
Office of the Monroe County District Attorney
701 Main Street, Suite 200
Stroudsburg, PA 18360
(570) 517-3962

Respectfully Submitted,
/s/ Michael Wiseman
Michael Wiseman
Counsel of Record for Respondent
Wiseman & Schwartz, LLP
718 Arch Street, Suite 702 North
Philadelphia, PA 19106
215-450-0903
wiseman@wisemanschwartz.com

